 Criminal
 I nvestigative
 Policy &
 Oversight
 Evaluation of the Policies and Practices for the Utilization
              of DNA Technology within the
      Military Criminal Investigative Organizations

Report Number CIPO2002S002                           May 17, 2002



              Office of the Inspector General
              of the Department of Defense
  Additional Information and Copies

  The Office of the Deputy Assistant Inspector General for Criminal Investigative
  Policy and Oversight, Office of the Assistant Inspector General for Investigations,
  DoD, prepared this report. To obtain additional copies of this evaluation report,
  visit the IG DoD Homepage at http://www.dodig.osd.mil/dcis/cipo/evals.htm, or
  contact Mr. David Holmes at (703) 604-8746 (DSN 664-8746)
  (dholmes@dodig.osd.mil).

  Suggestions for Evaluation

  To suggest ideas for or to request evaluations, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
AFOSI                Air Force Office of Special Investigations
ASCLD                American Society of Crime Laboratory Directors
CODIS                Combined DNA Index System
DNA                  Deoxyribonucleic Acid
DoJ                  Department of Justice
FBI                  Federal Bureau of Investigation
FC                   Forensic Consultant
FSC                  Forensic Science Consultant
FSO                  Forensic Science Officer
MCIO                 Military Criminal Investigative Organization
MCRT                 Major Case Response Team
NCIS                 Naval Criminal Investigative Service
NDIS                 National DNA Index System
NCISRFL              Naval Criminal Investigative Regional Forensic Laboratory
QMO                  Qualifying Military Offense
USACIDC              U.S. Army Criminal Investigation Command
USACIL               U.S. Army Criminal Investigation Laboratory
USD (P&R)            Under Secretary of Defense for Personnel and Readiness
                                   INSPECTORGENERAL
                                   DEPARTMENT OF DEFENSE
                                     400 ARMY NAVY DRIVE
                                ARLINGTON. VIRGINIA 22202-4704




                                                                      May 17,2002
 MEMORANDUM FOR ASSISTANT SECRETARY OF THE AIR FORCE
                  (FINANCIAL MANAGEMENT AND COMPTROLLER)
                 NA V AL INSPECTOR GENERAL
                 AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Report on the Evaluationof the Policies and Practicesfor the Utilization
        of DNA Technologywithin the Military Criminal Investigative
        Organizations(Report No. CIPO2002S002)

        Weare providing this fmal report for your review and for any additional
commentas appropriateor as requested. We consideredmanagementcommentson a
draft of this report when preparingthe final report.
        DoD Directive 7650.3 requiresthat all recommendations  be resolvedpromptly.
The Army and Navy were responsiveto all recommendations.The Air Force
concurredwith Recommendations     A.l and A.3, and partially concurredwith
RecommendationB. For reasonsset forth in the [mal report, we did not acceptthe
basis for partial concurrencewith RecommendationB in the draft report. We request
the Air Force provide additionalcommentson RecommendationB. Commentsare to
be submittedby June 16, 2002.
      We appreciatethe courtesiesextendedto the evaluationstaff. For additional
information on this report, pleasecontactMr. David Holmes at (703) 604-8746(DSN
664-8746)(dholmes@dodig.osd.mil).



                                   Charles W. Beardall   1
                                                         "




                    l)p;mltvInvesti~ative
                Criminal
                    -   -r--J
                               A~.l:i~t~nt Tn~np;~tor
                                   -        Policy and
                                                r
                                                      Gp;~p;r~1
                                                        Oversi~ht
             Office of the Inspector General of the Department of Defense
Report No. CIPO2002S002                                                                  May 17, 2002
      (Project No. 2001C001)

          Evaluation of the Policies and Practices for the Utilization of
                DNA Technology within the Military Criminal
                          Investigative Organizations

                                        Executive Summary

Introduction. Deoxyribonucleic Acid (DNA) testing was first used in a criminal
investigation in the mid 1980s. Since that time it has become one of the most high
profile investigative tools available and one that is highly effective. DNA testing has
helped investigators identify perpetrators of violent crimes and the remains of missing
persons or victims of mass disasters, as well as exonerate the innocent.

In DoD, the Military Criminal Investigative Organizations (MCIOs)1 are responsible for
investigating major crimes within their respective areas of responsibility. MCIO
investigative policies and procedures include the processing of crime scenes. The use
of DNA analysis of evidence as an investigative tool by the MCIOs has grown
considerably in recent years because improved technology has rendered more accurate
results. Further, DNA evidence is being used more frequently to convict perpetrators
and exonerate suspects. Currently, within the DoD, the U.S. Army Criminal
Investigation Laboratory (USACIL) is the only military forensic laboratory capable of
DNA analysis.

On December 19, 2000, Congress passed the DNA Analysis Backlog Elimination Act
of 2000 (PL 106-546). The Act authorized Federal assistance to States to enable them
to clear their backlogs of DNA samples collected from convicted offenders and crime
scenes, provided the resulting DNA profiles are entered into the Combined DNA Index
System of the Federal Bureau of Investigation (FBI). For DoD, this Act added the
requirement to collect, analyze, and index DNA samples from persons convicted of
certain offenses under military law. On May 16, 2001, the Under Secretary of Defense
for Personnel and Readiness (USD (P&R)) issued a memorandum to the Services
establishing policy for implementing the Act. The memorandum requires USACIL to
analyze all DNA samples collected from Armed Forces members convicted of certain
military offenses, and to send the results to the FBI for inclusion in the National DNA
Index System, an element of CODIS.

1
    The MCIOs are the U.S. Army Criminal Investigation Command; the Air Force Office of Special
    Investigations; and the Naval Criminal Investigative Service, which services the Navy and Marine
    Corps.
Objectives. The primary objective of this evaluation was to assess the effectiveness of
MCIO policies and practices regarding the use of DNA technology. Specifically, we
evaluated the extent to which investigators use DNA analysis and the adequacy of DoD
resources for processing DNA in support of criminal investigations and in meeting
legislative requirements for convicted offender DNA analysis and indexing.

Evaluation Results. Special agents in the MCIOs use DNA technology as an
investigative tool and have achieved effective results. Using DNA technology,
investigators are able to solve crimes by identifying the perpetrators of violent crimes
and by clearing blameless suspects. However, our evaluation determined that
improvements could be made in using DNA technology.

        •    Additional clarification or guidance to MCIO agents is needed on submission
            of DNA evidence for analysis in unknown subject2 cases.

        •    The Naval Criminal Investigative Service (NCIS) must reduce the backlog of
            rape kits3 on unknown subject cases that have not been submitted to a
            laboratory for DNA analysis.

        •    Additional training on DNA technology may be warranted to improve agent
            awareness of DNA database capabilities.

        •    MCIO agents need to use forensic laboratories that are CODIS certified to
            ensure DNA evidence profiles are entered into the FBI forensic evidence index
            of CODIS.

Summary of Recommendations. We recommend that the Commanders, U.S. Army
Criminal Investigation Command and Air Force Office of Special Investigations, and
the Director, Naval Criminal Investigative Service, provide additional guidance or
clarification for submission of DNA evidence in unknown subject cases. We also
recommend that the Naval Criminal Investigative Service either contract out or work
with the U.S. Army Criminal Investigation Laboratory to reduce their backlog of
unprocessed rape kits currently being stored in evidence facilities. Further, we
recommend that the Commanders, U.S. Army Criminal Investigation Command and
Air Force Office of Special Investigations, and the Director, Naval Criminal
Investigative Service, provide training or take other action as necessary to ensure that
agents are familiar with CODIS and understand its significance as an investigative tool.
Finally, we recommend that the Director, Naval Criminal Investigative Service, and the
Commander, Air Force Office of Special Investigations, review guidance to agents on

2
    In the criminal investigative community, the term “subject” is used to refer to a person suspected of
    having committed a crime.
3
    Rape kits provide medical personnel a standardized means of obtaining and preserving biological
    evidence from victims of rapes and sexual assaults, ensuring the quality, quantity, and preservation of
    evidentiary specimens.



                                                       ii
the use of laboratories for DNA analysis and ensure that laboratories used are CODIS
certified.

Management Comments.

The Army, Navy, and Air Force concurred with the recommendation that additional
guidance and training be provided for submission of potential DNA evidence in
unknown subject cases to forensic laboratories for analysis.

The Navy concurred with the recommendation to work with the U.S. Army Criminal
Investigation Laboratory to clear up the NCIS backlog of unprocessed rape evidence
currently being stored in evidence facilities.

The Army, Navy, and Air Force concurred with the recommendation to provide
training or take other action as necessary to strengthen agents’ awareness of CODIS,
and to understand its significance as an investigative tool.

The Navy concurred with the recommendation to review guidance to agents on the use
of laboratories for DNA analysis and ensure that laboratories used are CODIS certified.
The Air Force partially concurred stating they concurred in theory; however, there
were several reasons why they would not mandate the use of a CODIS laboratory for
DNA analysis at this time, including increased costs and increased turn-around times.
They agreed to review and update their list of approved laboratories, and to keep the
list updated.

Evaluation Response. The Army and Navy concurred with all recommendations. The
Air Force disagreed with the recommendation to require the use of CODIS certified
laboratories for conducting DNA analyses. While they agreed there would be added
benefits, they will not mandate the use of CODIS certified laboratories at this time
because of possible increased costs and turn-around times for processing evidence. We
request the Air Force reconsider its position and provide comments to the final report
by June 16, 2002.

A discussion of management comments can be found in this report following each
recommendation. The complete text of management comments can be found following
Appendix B.




                                          iii
Table of Contents

Executive Summary                                                i

Introduction
     Background                                                  1
     Objectives                                                  2

Findings
     Evaluation Results                                          3
     A. DNA Technology in the Military Criminal Investigative
        Organizations                                            9
     B. DNA Profiling                                           15

Appendixes
     A. Evaluation Process                                      21
         Scope
         Methodology
         Prior Coverage
     B. Report Distribution                                     23

Management Comments
     Department of the Army Comments                            26
     Department of the Navy Comments                            28
     Department of the Air Force Comments                       32
Background
    DNA (deoxyribonucleic acid) is found in the nucleus of cells that contain
    chromosomes. It provides the genetic code that determines the finite building
    blocks, or nucleotides, that make up our individual characteristics. Except for
    identical twins, each person’s DNA is unique. DNA testing represents the most
    significant advance in forensic science since the advent of fingerprinting in the
    early 1900s. DNA profiling can identify an individual’s DNA to a frequency of
    occurrence in a population to one in several quadrillion. DNA testing is
    possible whenever such biological samples as semen, saliva, hair, or blood are
    available. Since the late 1980s, DNA testing has proven to be a powerful
    investigative tool for law enforcement. Violent crimes, particularly sexual
    assault cases, that once might have gone unresolved due to insufficient evidence
    are now being solved through the use of DNA recovered from crime scenes.
    DNA evidence can also be used to exonerate individuals who have been wrongly
    accused.

    Legislative Requirements. The use of DNA technology in the criminal justice
    system has received significant attention in recent years. Several laws have
    been passed relating to DNA technology and its use in the criminal justice
    system. The DNA Identification Act of 1994 (P.L. 103-322), requires the
    establishment of DNA quality assurance and proficiency testing standards, as
    well as a national index of DNA samples. In response to the indexing authority
    provided in the 1994 Act, the FBI established the Combined DNA Index System
    (CODIS).

    The language in the 1994 Act did not include a requirement to obtain DNA
    samples from convicted Federal offenders. In 1996, Congress passed the
    Antiterrorism and Effective Death Penalty Act of 1996 (P.L. 104-132), which
    among other things, authorized the Director of the FBI to expand CODIS to
    include DNA samples from offenders convicted of Federal crimes and crimes
    committed in the District of Columbia.

    In a 1998 Appropriations Act for the Departments of Commerce and State, the
    Judiciary, and related agencies, Congress provided the Department of Justice
    (DoJ) funds for DNA related programs. Additionally, the law required the
    Attorney General to submit a report to Congress with an implementation plan
    for collecting DNA samples from persons convicted of Federal sex offenses.
    DoJ (specifically the FBI) complied by submitting their report in December
    1998 and requested that Congress enact statutory authority to allow the taking of
    DNA samples from persons committing Federal crimes of violence, and similar
    crimes in the District of Columbia or while in the military, and authorize them
    to be included in CODIS.

    In December 2000, Congress responded to the FBI request and passed the DNA
    Analysis Backlog Elimination Act of 2000. The Backlog Elimination Act
    authorized Federal assistance to States to enable them to clear their backlogs of
    DNA samples collected from convicted offenders and crime scenes that the
    States had been unable to analyze because of shortfalls in resources, provided
    the resulting DNA profiles are entered into CODIS. For DoD, this Act added



                                        1
           the requirement to collect, analyze, and index DNA samples from persons
           convicted of certain offenses under military law.4
           DoD Implementation. On May 16, 2001, the Under Secretary of Defense for
           Personnel and Readiness (USD (P&R)) issued a memorandum to the Services
           establishing policy for implementing Section 5 of the DNA Analysis Backlog
           Elimination Act of 2000. The memorandum designated the U.S. Army
           Criminal Investigation Laboratory (USACIL) as responsible for convicted
           offender DNA analysis. USACIL is accredited by the American Society of
           Crime Laboratory Directors (ASCLD), and is the only forensic laboratory
           within DoD that is capable of DNA analysis. USACIL was also made
           responsible for sending DNA profiles of convicted offenders to the FBI for
           inclusion into CODIS.

           U.S.A. Patriot Act of 2001. In October 2001, Congress passed the Uniting
           and Strengthening America by Providing Appropriate Tools Required to
           Intercept and Obstruct Terrorism Act of 2001 (P.L. 107-56), also known as the
           U.S.A. Patriot Act. The Patriot Act amends the DNA Analysis Backlog
           Elimination Act of 2000 by adding numerous offenses to the list of qualifying
           Federal offenses, which serves as the basis for collecting DNA samples from
           convicted offenders. The Act is being reviewed by USD(P&R) to determine if
           any offense should be added to the list of qualifying military offenses.

Objectives
           The primary evaluation objective was to assess the effectiveness of MCIO use of
           DNA technology. Specifically, we evaluated the extent to which investigators
           collect and use potential DNA evidence and the adequacy of the resources to
           support its use in criminal investigations. We also assessed the effectiveness of
           DoD in meeting requirements for the collection, analysis, and indexing of DNA
           samples taken from military members who have been convicted of offenses
           under military law. See Appendix A for a discussion of the evaluation scope
           and methodology and for prior coverage.




4
    No funding was specifically identified for DoD in this legislation.




                                                       2
                    Evaluation Results
                    Special Agents in the Military Criminal Investigative Organizations
                    (MCIOs) use DNA technology as an investigative tool with effective
                    results. Using DNA technology, investigators have been able to solve
                    crimes by identifying the perpetrators of violent crimes and by clearing
                    blameless suspects. In addition, technical forensic assistance is available
                    to agents through the use of forensic experts assigned within each MCIO.
                    MCIO agents primarily obtain their analysis of DNA samples from the
                    U.S. Army Criminal Investigation Laboratory located at Fort Gillem,
                    Georgia.

Background
           Our review determined that overall MCIO agents follow their organization’s
           guidance and procedures for identifying, preserving, and collecting biological
           evidence5 for subsequent technical or scientific examination, and that they are
           trained in the fundamentals of those duties. How crime scenes are processed
           and investigations are conducted, and under what circumstances potential DNA
           evidence is submitted for forensic analysis, varies with each MCIO. The
           MCIOs have developed crime scene handbooks that are provided to their
           investigators as a ready-reference for evidence collection and preservation,
           including biological evidence. In addition, agents receive technical assistance,
           training, consultation, and on-site assistance when needed from designated
           forensic specialists within each MCIO.

           U.S. Army Criminal Investigation Command (USACIDC). USACIDC
           currently has 12 Forensic Science Officers (FSOs) who provide support in
           complex investigations. The support includes on-site crime scene assistance and
           training for field units to ensure the use of appropriate forensic techniques.
           USACIDC policy makes USACIDC commanders at all levels responsible for
           ensuring FSOs are consulted where their expertise would be helpful in resolving
           the matter under investigation. Battalion Commanders decide when field agents
           must coordinate with their servicing FSO. Not all FSO positions are full time.
           In addition to their FSO functions, some of these agents are assigned other
           duties.

           USACIDC field agents receive DNA forensic support from USACIL,6 which
           provides state-of-the art forensic DNA examinations. USACIL is accredited by
           the American Society of Crime Laboratory Directors and under a Memorandum
           of Understanding (MOU) with the FBI participates in the National DNA Index
           System (NDIS).

           Naval Criminal Investigative Service (NCIS). NCIS currently has six
           Forensic Consultants (FCs), with one additional agent in training who will

5
    Biological evidence includes blood, semen, saliva, and other body fluids.
6
    Army policy requires USACIDC investigators to use USACIL for their forensic needs unless prior
    approval to use another laboratory is granted by the Commander, USACIL.



                                                      3
           become the seventh FC. NCIS uses Major Case Response Teams (MCRTs) to
           process major crime scenes. The teams assume the forensic collector role in
           crime scene management and use a three-tiered approach to crime scene
           processing. Tier I, the “Essential Level,” employs basic skills held by all NCIS
           agents. Tier II, the “Advanced Level,” uses crime scene specialists who have
           advanced training in crime scene examination and forensics. Tier III, the
           “Masters Level,” uses special agents who have graduated from an accredited
           forensic science program, hold a Master of Forensic Science degree, and are
           assigned as FCs. FCs oversee the MCRTs, but do not manage them. It is up to
           local field offices to set policy on when the MCRT responds, but at a minimum,
           they respond to all death cases and sexual assaults. NCIS policy recommends
           that agents coordinate with their servicing FC as appropriate. For most
           investigations the Special Agent in Charge of a field office retains operational
           control of the investigation and works closely with the MCRT.

           NCIS operates two limited-service, ASCLD accredited forensic laboratories
           designated as Naval Criminal Investigative Service Regional Forensic
           Laboratories (NCISRFLs). One is located in Norfolk, Virginia, and the other is
           in San Diego, California. Both NCISRFLs provide forensic support in the
           disciplines of latent prints, drug chemistry, arson, and questioned documents.
           For serology/DNA analysis, NCIS must obtain support from other laboratories.

           Air Force Office of Special Investigations (AFOSI). AFOSI currently has six
           Forensic Science Consultants (FSCs) who assist field agents on forensic
           matters.7 AFOSI policy requires agents to coordinate all death investigations,
           rape allegations, and reports of child sexual abuse with their servicing FSCs. In
           addition, AFOSI policy advises agents to consult with the FSCs on
           investigations where biological evidence is involved.

           AFOSI does not have a forensic laboratory organic to the command; instead,
           agents are required to use laboratories approved by their FSCs and listed on an
           Approved Forensic Sciences Laboratory List. Currently, 32 laboratories that
           conduct DNA analysis are on the AFOSI Approved Forensic Science Laboratory
           List, including USACIL.

Agent Use of DNA Analysis8
           Survey Results on Agents Use of DNA Analysis. Using a random sample of
           240 MCIO agents, we conducted a survey that was posted on the World Wide
           Web. The extent of investigative experience of the responding agents was as
           follows:

                   •    less than 1 year, 5 percent;

                   •    more than 1 but less than 3 years, 13 percent;

                   •    more than 3 but less than 5 years, 11 percent;

7
    An additional FSC position has recently been authorized.
8
    See Appendix A for details regarding the methodology of the survey and file review discussed here.

                                                     4
        •   more than 5 but less than 7 years, 12 percent; and

        •   7 years or more, 59 percent.

Forty-two percent of the agents who responded to the survey indicated that as
the case agent, they determine whether to request DNA analysis of evidence
collected at a crime scene. Thirty-seven percent of the respondents indicated
they consulted with either their service forensic experts or their supervisors
when making the determination of whether to send potential DNA evidence to a
laboratory for analysis.

Types of Offenses. We asked agents which types of offenses (CY 1999 through
CY 2000) were most likely to result in the collection of DNA evidence and its
submission to a laboratory for analysis. Of the 240 respondents, 79 (33 percent)
indicated that they had never collected and submitted potential DNA evidence to
a laboratory during that 2-year period. Table 1 identifies the types of offenses
and the number of occasions agents indicated they had collected evidence and
submitted it to a laboratory for DNA analysis.

     Table 1. Types of Offenses and Number of Occasions MCIO Agents
             Indicated Collecting and Submitting Potential DNA
                         Evidence to a Laboratory

                           Number of        Number of      Number of
                         USACIDC Agents    NCIS Agents    AFOSI Agents
       Offenses            Responding      Responding      Responding    Totals


Rape                           56              41                47       144
Carnal Knowledge               21              4                 22        47
Indecent Acts/Assault          20              8                 17       45
Murder                         19              17                 6        42
Forcible Sodomy                22              8                  4        34
Aggravated Assault             17              7                 9        33
Housebreaking/Burglary         11              6                  2        19
Sodomy with a Child             9              4                  5        18
Other                           6              3                  8        17
Robbery                         7              1                  2        10
Arson                           6              0                  1        7
Kidnapping                      2              1                  0        3
Prostitution                    0              0                  0        0
Pandering                       0              0                  0        0


Effectiveness of DNA Analysis. In our survey questionnaire we asked those
agents who indicated they had used and submitted evidence for DNA analysis to
a laboratory if doing so had ever resulted in the positive identification of a
perpetrator(s) or to the exoneration of a suspect(s). Of the 161 agents who
indicated they had been involved in cases where such evidence was submitted,
108 (67 percent) said doing so resulted in a positive identification of a



                                     5
perpetrator(s) and 42 (26 percent) indicated that DNA evidence exonerated one
or more suspect(s).

In addition to the survey questionnaire, we also reviewed a sample of 280
MCIO closed investigation case files to determine the extent to which DNA
technology played a role in those investigations. The sample size was based on
7,551 investigations that covered CYs 1999 through 2000 and on the same
offenses identified in Table 1. Of the 280 case files we reviewed, 21 had
documentation that evidence had been sent to a laboratory for DNA analysis.
These offenses consisted of rape (43 percent), indecent assault (14 percent), and
child sexual abuse (10 percent). The following case file examples illustrate
instances where DNA analysis proved to be an effective investigative tool:

       •   Housebreaking, Larceny and Damage to Government Property.
           An investigation at an Army installation was initiated after thousands
           of dollars worth of government and private property, including
           buildings, windows, computer and television equipment, and a
           vehicle were damaged or destroyed. A witness observed a suspect in
           the vicinity the morning of the destruction. Investigators collected
           evidence that included a guidon pole and a tee shirt containing
           bloodstains. DNA analysis of the blood on the tee shirt and guidon
           pole matched the DNA of the suspect. As a result, he received 30
           days restriction, 30 days additional duty, and was ordered to pay
           $7,000 in fines and damages.

       •   Indecent Acts. In October 1998, an investigation was initiated after
           a 12-year-old victim told her father she had been forced to perform
           oral sex on a 20-year-old subject three times between June and
           August 1998. The victim said that on the first occasion the suspect
           ejaculated on the floor in the Youth Center of an Air Force base.
           Even though the incident took place approximately four months
           before the victim reported it, investigators were able to obtain
           enough of the semen stain from the floor for USACIL to retrieve
           DNA from the sample. The DNA matched that of the suspect. As a
           result of the evidence against him, he received 63 months
           confinement with 36 months probation, and a $400 fine.

       •   Indecent Assault. An investigation was initiated after a male victim
           alleged that a male suspect sexually assaulted him in the victim’s bed.
           The individuals were roommates in a Navy dormitory. The suspect
           claimed the two had consensual sex in the suspect’s bed. General
           court-martial charges were preferred against the suspect.
           Investigators collected sheets from both beds and sent them to
           USACIL for DNA analysis. Analysis of the semen found on the
           suspect’s sheets disclosed the DNA of both the suspect and victim;
           however, no semen or DNA could be found on the victim’s sheets.
           Since DNA evidence refuted the victim’s statement regarding the
           location and nature of the assault, charges for assault against the
           suspect were dropped.

Biological Evidence Collected but Not Submitted. In our survey, we also
asked agents to identify the number of investigations in the two years under
review in which they participated where biological evidence was collected but

                                    6
    not submitted for DNA analysis. Of the 237 agents who responded, 56
    (24 percent) indicated they participated in one or two investigations where such
    potential DNA evidence was collected but not submitted; 26 (11 percent)
    participated in 3 or 4 investigations where evidence was collected but not
    submitted; and 31 (13 percent) participated in more than four investigations
    where evidence was collected but not submitted. One hundred and twenty four
    (52 percent) responded that they never participated in an investigation where
    potential DNA evidence was collected but not submitted to a laboratory for
    analysis. Factors contributing to collecting but not submitting the biological
    evidence include: investigations of sex offenses in which there is no question
    that a sexual act occurred, and the only issue is consent; cases in which there is
    other adequate corroborating evidence (fingerprints, confession, etc.); or
    investigations in which the prosecutor does not think the submission of potential
    DNA evidence is warranted.

Agent Use of Forensic Laboratories
    Laboratories Used by Agents. For the analysis of DNA, USACIDC agents
    almost exclusively use USACIL. Based on our discussions with MCIO forensic
    experts, our review of closed case files, and the survey questionnaire we used,
    we found that NCIS and AFOSI agents use USACIL frequently. Because NCIS
    and AFOSI do not track costs of DNA analysis or which laboratories their
    agents use for evidence processing, we could not readily assess costs or
    laboratory usage associated with DNA analysis not conducted at USACIL.

    Fifty-two out of 240 (22 percent) respondents stated that they had never used a
    laboratory for DNA purposes. We asked agents who had used laboratories for
    DNA analysis in the two years under review to give their reasons for using a
    particular laboratory. The ranking choices available were Agency Policy,
    Quality of Service, Timeliness, Availability of Specialized Techniques, Location
    of Laboratory, and Cost. The number one reason agents gave for using a
    particular laboratory was Agency Policy, followed by Quality of Service,
    Timeliness, Availability of Specialized Techniques, Location of Laboratory, and
    Cost.

Agent Use of Forensic Experts
    MCIO agents rely on and effectively use their forensic experts for technical
    assistance in their investigations. In our survey we asked agents to rate their
    agency in providing technical assistance when DNA technology is used or
    considered at a crime scene. The survey choices included Excellent, Good,
    Fair, and Poor. Overall, 41 percent of the agents rated their agencies
    “Excellent” and 44 percent rated them “Good.” This was followed by
    12 percent “Fair,” and only 3 percent rated their agency as “Poor” on providing
    technical assistance on DNA matters. In addition, several agents made specific
    comments in reference to forensic experts and the value they contribute to their
    investigations. For example:
               “Our FSC program has always provided me with excellent technical
               assistance, to include DNA information.”




                                          7
               “Timely coordination with Forensic Science Consultant is a must.
               These individuals provide outstanding investigative assistance and
               guidance.”

               “Forensic consultants can easily be consulted for guidance, as well as
               assistance.”

Conclusion
    Our survey instrument and our field visits confirm that MCIO agents use DNA
    analysis as an effective investigative tool. In addition, our review of case files
    determined that the agents obtained beneficial results by using DNA evidence
    developed from biological samples collected at crime scenes. Our agent survey
    also validated that the services and technical assistance provided by the MCIO
    forensic experts contribute significantly to the quality and productivity of
    investigations.




                                            8
                    A. DNA Technology in the Military
                       Criminal Investigative Organizations
                    Although agents in the MCIOs have achieved effective results through
                    their use of DNA technology, some improvements for using DNA
                    technology as an investigative tool can be made. Specifically, all MCIOs
                    need to provide additional clarification and guidance on the submission
                    of DNA samples from unknown subjects. Further, NCIS is experiencing
                    a backlog on DNA analysis of rape evidence currently being stored in
                    evidence facilities, preventing potential DNA profiles from being entered
                    into databases. Additional training on DNA technology may also be
                    warranted to improve awareness of DNA database capabilities.

Background
           Agents usually follow their organization’s guidance for submitting evidence to a
           laboratory for analysis. However, there is confusion among agents within each
           MCIO on whether evidence should be submitted for laboratory examination in
           unknown subject investigations. At a November 13, 1997, meeting of the DoD
           Forensic Science Committee,9 USACIL representatives announced that they
           were connected to the FBI’s national Combined DNA Index System (CODIS)
           and were capable of checking unknown subject DNA profiles against profiles in
           CODIS and in other DoD cases where the subject profiles have been
           aggregated. Further, they stated that USACIL had the ability to cross link cases
           by searching subject profiles against DNA profiles in CODIS and would now
           accept all types of cases for DNA analysis, to include cases where no suspect
           had been identified. At a November 16, 1998, DoD Forensic Science
           Committee meeting, USACIL representatives reiterated the USACIL position to
           process biological evidence in cases where there are no suspects.




9
    DODI 5100.86, DoD Forensic Science Committee, October 10, 1996, established the DoD Forensic
    Science Committee as a joint DoD committee for the review and resolution of forensic science issues of
    concern to the DoD forensic science community. Members of the committee consist of representatives
    from the IG DoD; the Defense Criminal Investigative Organizations; the Marine Corps Criminal
    Investigation Division; and the Office of the Armed Forces Medical Examiner at the Armed Forces
    Institute of Pathology.



                                                      9
DNA Evidence of Unknown Subject(s)
        Agent Submission of Potential DNA Evidence of Unknown Subjects. In our
        survey, 236 out of 240 agents responded to the question regarding DNA in
        unknown subject cases. We asked agents which statement was most accurate:
        “Submit whether or not there is a subject” or “Submit only if there is a
        subject.” Seventy-nine out of 85 (93 percent) USACIDC agents stated they
        submit whether or not there is a subject; 31 out of 73 (42 percent) NCIS agents
        stated they submit whether or not there is a subject; and 45 out of 78
        (58 percent) AFOSI agents stated they submit whether or not there is a subject.

        MCIO Policies for Submission of Potential DNA Evidence of Unknown
        Subjects. In our field site visits, forensic experts stated that for the most part
        they were not familiar with any specific written policies on this issue, but said
        such evidence should be submitted in most cases.

        NCIS Backlog of Rape Evidence. In May 2000, NCIS, through a General
        Administrative memo, provided guidance to its field agents for retention of
        evidence collected on unsolved rape investigations. This guidance provided
        that: “… evidence collected during unsolved rape investigations will be held indefinitely.
        However, under certain circumstances, agents may seek approval to dispose of such evidence—
        such as when a decision is made to not prosecute, or when prosecution is unlikely. In such
        cases, clear and concise dialog with the Convening Authority, or his/her Staff Judge Advocate,
        and/or the prosecuting official(s) must occur before disposing of evidence.” Further guidance
        states: “Retained evidence should be maintained in the evidence storage facility at the NCIS
        field component where the investigation is controlled. It should not be forwarded to a
        consolidated evidence facility10 unless control of the investigation has been transferred to that
        location. Retention locally will allow for review of the evidence by agents subsequently
        assigned to investigate unsolved cases. In addition, items held as evidence which lend
        themselves to DNA analysis should be submitted to USACIL for submission into CODIS.”

        In September we visited the NCISRFL, Norfolk, Virginia. The laboratory
        director stated that the laboratory is currently storing unprocessed potential
        DNA evidence dating back to 1997. She estimated that approximately 100 items
        of biological evidence were being stored in refrigerators at the laboratory with a
        similar number being stored in the San Diego laboratory. Items being stored
        include evidence collected in sexual assault kits and blood and urine swabs. We
        have not determined how many items are being stored at NCIS field sites since
        the May 2000 guidance was issued. Although the analysis of these “rape kits”
        is low in priority in comparison to active cases, data from these kits are not
        being input to CODIS. At the time of our visit (September 2001) NCISRFL
        Norfolk logs indicated that 44 items had been shipped to USACIL for DNA
        analysis with the oldest case shipped for processing on February 7, 2001.




10
  Consolidated evidence facilities store evidence for several NCIS field offices within their immediate
 geographical area. The two consolidated evidence facilities are co-located within the NCISRFL,
 Norfolk, VA, and the NCISRFL, San Diego, CA.

                                                   10
MCIO DNA Training
    MCIOs Basic Agent Training. All MCIO agents are trained in crime scene
    processing and evidence handling in their basic agent courses. USACIDC
    provides a 15-week Apprentice Special Agent Course at the U.S. Army Military
    Police School, Fort Leonard Wood, Missouri. The course includes a 40-hour
    crimes against persons course that dedicates one hour to DNA training. NCIS
    agents attend a 15-week course at the Federal Law Enforcement Training
    Center, Glynco, Georgia. The course includes a 9-week criminal investigators
    course and a 6-week NCIS add-on course with one hour specifically dedicated to
    DNA. AFOSI provides an 11-week course to agents at the U.S. Air Force
    Special Investigations Academy, Andrews Air Force Base, Maryland. The
    course includes an 8-hour crime scene processing course and a 10-hour physical
    and biological evidence course. Although no specific time is devoted to DNA,
    DNA is discussed in these two courses.
    MCIOs Specialized DNA Training. Using our survey questionnaire we asked
    agents to determine the amount of specialized training on DNA technology they
    received in the two years under review. We asked agents not to include DNA
    training received in their basic agent courses. Their responses revealed that
    43 percent had received no specialized training in DNA; 44 percent had
    received 1-10 hours of DNA training; 5 percent had received 10-20 hours of
    DNA training; and 4 percent indicated they had received 20 hours or more of
    DNA training during that 2-year period. We also surveyed the agents to
    determine whether they felt trained and qualified to successfully identify,
    safeguard, collect, and preserve potential DNA evidence. Responses included:
    “Yes,” 46 percent; “Probably Yes,” 30 percent; “Uncertain,” 12 percent;
    “Probably Not” 7 percent; and “No,” 5 percent.

    Agent Familiarity with CODIS. When we asked agents about their familiarity
    with CODIS, only 27 percent said they were “Very Familiar” or “Familiar”
    with the system. A total of 73 percent indicated they were “Somewhat
    Familiar” (28 percent) or “Not Familiar” (45 percent). Table 2 shows the
    breakdown of the responses from the MCIO agents on their familiarity with
    CODIS.




                                      11
                       Table 2. Agent Familiarity With CODIS
                    USACIDC      %        NCIS      %        AFOSI   %        Total    %


    Very Familiar           6         7       3          4       4        5       13        5
    Familiar               27        32      19         26       7        9       53       22
    Somewhat               25        29      22         30      19       24      66        28
    Not Familiar           27        32     30          41      50       62     107        45
    No Response                             (1)                                  (1)

    Total                  85     100          74   100         80   100        239    100




Summary
    We find that overall the MCIO practices and guidance on DNA technology
    enhance the effectiveness of the law enforcement community. To enhance the
    beneficial usage of DNA technology, agents need to properly use it whenever
    possible and submit evidence for DNA analysis in unknown subject cases when
    investigations warrant the use of DNA. Our survey questionnaire revealed that
    some agents may not be routinely submitting evidence when a subject is not
    known. Additional guidance and training are needed to ensure that agents
    collect and submit evidence on unknown subjects that would contribute to the
    DNA profiles in CODIS. Also, the storing of evidence needing DNA analysis
    also prevents profiles from being entered into databases that have the potential
    to identify perpetrators, exonerate suspects, and link crime scenes. Lastly, it is
    particularly essential that agents are made aware of the importance of CODIS
    and its benefits to the law enforcement community in generating investigative
    leads in crimes where biological evidence is recovered from the crime scene.

Recommendations and Management Comments
    A.1. We recommend that the Commanders, U.S. Army Criminal
    Investigation Command and Air Force Office of Special Investigations, and
    the Director, Naval Criminal Investigative Service, provide additional
    guidance and training for submission of potential DNA evidence in
    unknown subject cases to forensic laboratories for analysis.

    Army Comments. The Army concurred stating that an operational
    memorandum is being dispatched to clarify and re-emphasize the submission of
    DNA evidence in unknown subject cases.

    Navy Comments. The Navy concurred stating that in addition to the guidance
    already incorporated in its crime scene guidance for new-hire agents, the
    usefulness of submitting DNA evidence in unknown subject cases will be
    provided during in-service classes for veteran agents.

                                          12
Air Force Comments. The Air Force concurred stating that AFOSI is adding
information to the AFOSI basic agent course curriculum and updating
AFOSIMAN 71-103, Vol. 2, Special Investigations Forensic Sciences. AFOSI
is also sending a memorandum to all field units informing them of the
requirements. The Air Force also stated the FSCs will be sure to recommend
DNA analysis in all appropriate investigations

A.2. We recommend that the Director, Naval Criminal Investigative
Service, either contract out on a one-time basis or work with the U.S. Army
Criminal Investigation Laboratory to clear up the NCIS backlog of
unprocessed rape evidence currently being stored in evidence facilities.

Army Comments. Although the Army was not asked to comment on this
recommendation, they offered the following: The NCIS backlog of unprocessed
rape cases should be sent to the USACIL for processing. The Director,
USACIL, and the Navy crime laboratory are coordinating submission of these
cases to USACIL.
Navy Comments. The Navy concurred stating NCIS has been working with the
U.S. Army Criminal Investigation Laboratory to ensure this backlog is cleared
as soon as possible. Contracting out the work will be considered as a last resort
and will only be pursued if USACIL is unable to process these additional
evidence submissions in a timely manner.

A.3. We recommend that the Commanders, U.S. Army Criminal
Investigation Command and Air Force Office of Special Investigations, and
the Director, Naval Criminal Investigative Service, provide training or take
other action as necessary to strengthen agents’ awareness of CODIS and to
understand its significance as an investigative tool.

Army Comments. The Army concurred stating USACIDC is revising Army
Regulation 195-5, Evidence Procedures, and Field Manual 19-20, Law
Enforcement Investigations to provide additional guidance on DNA collection,
evaluation, and submission. The U.S. Army Military Police School has
developed a new Advanced Crime Scene course, which contains an adjunct
three hours of training on DNA evaluation and collection. The USACIDC
Forensic Science Officers will also develop supplementary training and post the
guidance to the USACIDC Intranet site.

Navy Comments. The Navy concurred stating CODIS has been included in
new-hire agent training to ensure a complete understanding of the data bank
information and how it is used to resolve criminal issues. It will also be
included in future in-service training for veteran field agents. Training CDs
relating to DNA evidence and the CODIS system recently produced by the
National Institute of Justice’s National Commission on the Future of DNA
Evidence are being obtained and distributed to the field as well.

Air Force Comments. The Air Force concurred stating they will include
CODIS in their three-part process mentioned in response to
Recommendation A.1.1.




                                   13
                B. DNA Profiling
                In the military, not all DNA profiles are being entered into CODIS.
                This occurs because MCIOs may use laboratories for DNA evidence
                processing that are not CODIS certified. Because of this, database
                registries are not currently comprehensive and cannot be fully utilized.

Background
        Combined DNA Index System (CODIS). The DNA Identification Act of 1994
        (P.L. 103-322) formalized FBI authority to establish a national DNA index for
        law enforcement purposes. The index became operational in 1998. CODIS is
        an FBI automated DNA information processing and telecommunications system
        that includes the National DNA Index System (NDIS), State DNA Index
        System, and Local DNA Index System. The State DNA Index System allows
        laboratories within a state to exchange DNA profiles with each other. States
        provide DNA profiles to the FBI for indexing into NDIS. NDIS links profiles
        from the databases of each of the 50 states to provide law enforcement with a
        national network to investigate violent crime.

        Using two indexes, CODIS generates investigative leads in crimes where
        biological evidence is recovered and analyzed. The convicted offender index
        contains DNA profiles of individuals convicted of sex offenses and other violent
        crimes. The forensic index contains DNA profiles from crime scene evidence.

        The aim of the DNA Identification Act of 1994 was to increase the capabilities
        and capacity of State and local forensic laboratories to conduct DNA testing. In
        the first year, the National Institute of Justice, U.S. Department of Justice,
        awarded $8.75 million to 30 states. More recently Congress approved the
        FY 2002 U.S. Department of Justice appropriations bill that included
        $40 million for the DNA Backlog Elimination Act of 2000 to reduce the DNA
        sample backlog. Federal laboratories do not receive funding under the DNA
        Identification Act of 1994.

DoD Implementation of the DNA Analysis Backlog
  Elimination Act of 2000
        On May 16, 2001, the USD (P&R) issued a memorandum establishing policy
        for implementing Section 5 of the DNA Analysis Backlog Elimination Act of
        2000, 10 U.S.C. § 1565. The memorandum requires that DNA samples be
        collected from all Armed Forces members convicted of a qualifying military
        offense (QMO),11 except those who are currently in Bureau of Prisons
        institutions or on parole under supervision of a Federal probation officer. In
        addition, the memorandum designates USACIL to analyze all collected DNA

11
  Qualifying Military Offenses under 10 U.S.C. § 1565 include: Murder, Voluntary Manslaughter,
 Rape, Carnal Knowledge, Forcible Sodomy, Sodomy With a Child, Aggravated Assault, Indecent
 Assault, Indecent Acts With Another, Indecent Acts With a Child, Indecent Language to a Child,
 Prostitution Involving a Minor, Kidnapping, Robbery, Housebreaking, Maiming, and Arson.



                                                15
samples and to submit the results to the FBI. The policy issued in the
memorandum will be published in a future revision of Department of Defense
Instruction 1325.7, “Administration of Military Correctional Facilities and
Clemency and Parole Authority.”

On March 9, 2000, USACIL signed a MOU with the FBI to participate in the
CODIS program. The MOU establishes general and specific standards to be
followed by the laboratory for participating and utilizing NDIS, including the
upload of DNA profiles to NDIS. All forensic DNA testing laboratories
supported by CODIS are required to be in compliance and meet standards in
accordance with the “Quality Assurance Audit for Forensic DNA and Convicted
Offender DNA Databasing Laboratories” developed by the FBI. The FBI
provides CODIS software, installation, training, and user support free of charge
to State and local law enforcement laboratories performing DNA analysis. As
of May 15, 2001, the FBI had installed CODIS in 161 laboratories.

CODIS Convicted Offender Index. DNA samples of convicted military
offenders are to be indexed consistent with the QMOs identified in the May 16,
2001, USD (P&R) memorandum. In August 2001, USACIL shipped out
sample collection kits and a Microsoft PowerPoint DNA collection kit
training package to the larger military correctional facilities. Based upon the
QMOs, USACIL anticipates a workload of processing 1,000 samples from
previously convicted offenders in confinement and 1,000 new samples per year
from new convictions. As of December 2001, USACIL had received
300 convicted offender samples. Processing samples by making bloodstain
cards began in December 2001, and the typing of samples and entering profiles
from these cards into CODIS is anticipated to begin in June or July 2002.

CODIS Forensic Index. The forensic index contains DNA profiles from crime
scene evidence. Matches made among profiles in the forensic index can link
crime scenes together, possibly identifying serial offenders. Based on a match,
law enforcement personnel in multiple jurisdictions can coordinate their
respective investigations and share the leads they develop independently.

Information provided by USACIL indicates that from October l, 1999, through
September 30, 2000, the laboratory’s workload for DNA forensic analysis was:
Army 49 percent, Air Force 22 percent, and Navy (including Marine Corps)
29 percent. In addition to using USACIL, NCIS and AFOSI use other
laboratories for processing potential DNA evidence. Because NCIS and AFOSI
do not track costs or the laboratories their agents use, we were unable to readily
determine whether the laboratories being used by agents are ASCLD accredited,
or if they are CODIS installed laboratories. AFOSI provides their agents a list
of approved laboratories to use for evidence processing that also identifies
laboratories with DNA capabilities. Our review of that list showed
32 laboratories with DNA capability. Sixteen of the 32 laboratories (50 percent)
do not have CODIS installed and 14 of the laboratories (44 percent) are not
ASCLD certified (as of June 2001). NCIS has no such list, and its agents may
use their discretion in selecting a laboratory.




                                    16
Resources
        Costs to Implement the Act. To meet the requirements of the DNA Analysis
        Backlog Elimination Act, USACIL expended approximately $213,300 for
        equipment and facility modifications to implement CODIS. USACIL moved
        two of its forensic biologists from casework to run the CODIS programs and
        hired two additional staff members to backfill the vacancies left in the DNA
        casework section. It is estimated that the two DNA examiners dedicated to the
        CODIS program with salaries, benefits, training, and proficiency tests will cost
        $182,700 annually. USACIL estimates an annual cost for staffing, equipment,
        and supplies based on 1,000 samples a year to be $298,500. The estimated
        supply costs for processing a sample are $33.57.12 The Army provided
        USACIL $518,000 for initial costs in FY 2001, and $298,000 for FY 2002 to
        implement the Act. No central DoD funding was provided to implement the
        Backlog Elimination Act.

Summary
        USACIL is a state-of-the-art, CODIS certified forensic laboratory, and its DNA
        forensic work is highly effective. However, it is not currently feasible for
        USACIL to meet all of the Services’ DNA analysis needs. Therefore, it is
        essential that NCIS and AFOSI use other forensic laboratories for their DNA
        evidence processing that are CODIS certified to enhance DNA databases and to
        achieve the maximum benefit as an investigative tool.

Recommendations, Management Comments, and Evaluation
  Response
        B. We recommend that the Director, Naval Criminal Investigative Service,
        and the Commander, Air Force Office of Special Investigations, review
        guidance to agents on the use of laboratories for DNA analysis and ensure
        that laboratories used are CODIS certified.
        Navy Comments. The Navy concurred and advised that it is reviewing its
        guidance for the field to ensure the laboratories used are CODIS certified.

        Air Force Comments. The Air Force partially concurred, stating that it
        concurs with the recommendation in theory. The Air Force also agreed that
        using a CODIS certified laboratory has potential as an investigative tool and
        could assist in resolving some investigations. However, according to the Air
        Force, the issues are more complex in practice and many factors must be taken
        into account when selecting a laboratory for evidence analysis. Air Force
        advised that, at the current time, it will not mandate using CODIS certified
        laboratories for the following key reasons:


12
  USACIL’s estimated supply costs per sample: Collection - $4.80; Preservation - $4.67; DNA Typing
 - $24.10. Total: $33.57.



                                                17
               - USACIL does not have the capability to process all AFOSI evidence in
        a timely manner;

               - certain investigations are time sensitive, requiring immediate evidence
        processing;

               - using only CODIS certified laboratories would likely cause cost
        increases (to pay for different shipping methods, and some CODIS laboratories
        charge for their services); and

               - many AFOSI detachments have memoranda of understanding or
        agreement with local/state laboratories under which only the specific detachment
        may use the laboratory; thus, the closest CODIS laboratory might not be
        available to other detachments, which would be forced to find another
        laboratory or send evidence to USACIL, thereby increasing turnaround time.



        Although not agreeing to use only CODIS certified laboratories, Air Force
        advised that it would have FSCs review the listing of approved laboratories and
        then (1) contact the laboratories to determine if they are or will be CODIS
        certified; (2) update the list to annotate those laboratories with CODIS capability
        currently, or in the near future; and (3) have FSCs continue contacting
        laboratories periodically and ensure the list is continually updated.



        Evaluation Response. We cannot accept the Air Force comments. As
        indicated in the background section of this report, CODIS is the national
        database standard for indexing DNA in the United States.13 In addition to aiding
        individual AFOSI investigations, which the Air Force comments recognize,
        CODIS data can be used to link and help solve multiple crimes that an
        individual or group may have committed throughout the world, thereby
        benefiting both civilian and military law enforcement organizations, within and
        outside the United States.14 As a result, not entering DNA profiles in CODIS
        dilutes the worldwide investigative effectiveness for DoD law enforcement
        agencies charged with protecting a highly mobile population. This result is not
        acceptable.

13
  The DNA Analysis Backlog Elimination Act of 2000 (PL 106-546) authorizes the Attorney General of
 the United States to make grants for use by States who carry out DNA analyses of samples taken from
 individuals convicted of qualifying State offenses for inclusion into CODIS; to carry out DNA analyses
 of samples taken from crime scenes for inclusion into CODIS; and to increase the capacity of State and
 local laboratories to carry out DNA analyses of samples from crime scenes for inclusion into CODIS.
 CODIS software has been installed in 189 laboratories in 20 countries, including 153 laboratories in the
 U.S. Additionally, the FBI predicts that in the next year a CODIS certified laboratory will exist in each
 of the 50 States. Therefore, finding and using a CODIS certified laboratory is not generally a problem.
14
  We note in this regard that USACIL, using CODIS data, has had multiple “hits,” and has generated
 multiple leads in individual investigations. Additionally, a recent notable outcome was the arrest of an
 Air Force member after CODIS connected the Center City serial rapist in Philadelphia, Pennsylvania,
 to a serial rapist in Fort Collins, Colorado. The Air Force member lived in Ft. Collins.

                                                   18
           Furthermore, although the Air Force “key reasons” for not adopting our
           recommendation may appear reasonable on the face, they cannot be
           substantiated. As discussed in the report, neither Air Force nor the other
           Services maintained data upon which we could readily determine the extent to
           which they use non-CODIS certified laboratories. As a result, we could not
           compare costs and timeliness, and the Air Force comments do not indicate that
           they are based on any such actual comparison.



           Our primary concern is that DNA profiles from DoD evidentiary materials are
           included in CODIS. To the extent that an exigent circumstance might actually
           preclude using a CODIS certified laboratory to avoid jeopardizing an
           investigation, steps can still be taken to meet our concern. Specifically, the FBI
           has advised us that it will accept DNA profiles based on a non-certified
           laboratory examination, provided the non-certified laboratory certifies that the
           laboratory meets the FBI’s CODIS standards and a 100 percent review is
           conducted as quality assurance on the examination. Thus, if a Service were
           forced to use a non-CODIS certified laboratory in a particular investigation, the
           exigent circumstance could be justified in the case file, and the Service could
           use the FBI exception procedure to attempt to get the FBI to accept the DNA
           profile for inclusion in CODIS. In commenting on this final report, therefore,
           the Air Force should reconsider its position based on this option.15


15
  We discussed this option with AFOSI in processing the Air Force comments and did not receive a
 favorable reaction. Should Air Force continue its current position in responding to the final report,
 comments on the final report should include the following specific supporting data:
  1. identify each investigation wherein AFOSI used a non-CODIS laboratory to process DNA evidence
 during calendar year 2001;
     2. the specific reason(s) why AFOSI used a non-CODIS laboratory in each investigation; and
     3. the specific processing and handling costs that AFOSI incurred in each investigation using the
     non-CODIS laboratory.
     4. a comparison of the timeliness of response from CODIS and non-CODIS certified laboratories.




                                                      19
20
Appendix A. Evaluation Process

Scope and Methodology
    Work Performed. We performed this evaluation from February through
    November 2001. This evaluation focused on the MCIOs policies and practices
    for the utilization of DNA investigative technology within their organizations
    and on DoD implementation of the DNA Analysis Backlog Elimination Act of
    2000. We reviewed pertinent laws, policies, and guidance related to DNA
    technology. We conducted interviews and held discussions with program
    managers and staff members at the headquarters of the MCIOs. We also held
    interviews with two state law enforcement agencies to compare their policies
    and practices of DNA technology with the MCIOs. We visited State and
    Federal forensic laboratories to observe procedures and general practices for
    receiving and analysis of potential DNA evidence. To determine the extent to
    which DNA technology has played a role in MCIO general crimes investigations
    we reviewed investigative case files and conducted a survey questionnaire
    addressed to a sampling of MCIO agents. We held interviews at selected field
    sites with designated MCIO forensic science experts to discuss workload,
    training, laboratory services associated with DNA, and to follow up on survey
    questionnaire results.

    We also visited the U. S. Army Criminal Investigation Laboratory at Fort
    Gillem, Georgia, to assess DNA technology and general practices used in
    support of criminal investigations and to determine the adequacy of resources
    associated with the DNA Analysis Backlog Elimination Act of 2000.
    Additionally, we met with Under Secretary of Defense for Personnel and
    Readiness personnel to discuss the Army’s role as Executive Agent for the DNA
    Analysis Backlog Elimination Act of 2000.

    Use of Computer-Processed Data. We relied on computer-processed data
    from the MCIOs to establish case file reviews and to establish relative sizes of
    general crimes agent populations. Since we are not projecting any data from the
    case file reviews or the questionnaire results, the accuracy of the MCIOs’
    databases is not relevant to the evaluation results and we did not evaluate their
    accuracy.

    Methodology. The MCIOs provided us data runs listing 7,551 investigations
    for CYs 1999 through 2000. The investigations represented Uniform Code of
    Military Justice offenses determined to be a “qualifying military offense” under
    the DNA Analysis Backlog Elimination Act of 2000. Using the data runs, an
    investigative case file sample for each MCIO was calculated using a 95 percent
    confidence level and l0 percent precision level. The sample size represented
    280 records (USACIDC 95; NCIS 95; and AFOSI 90). The MCIOs also
    provided us listings of their general crimes agents for purposes of conducting a
    survey questionnaire on the World Wide Web. Using a quota type sample, 240
    agents (USACIDC 85; NCIS 75; and AFOSI 80) from 149 locations participated
    in the survey.



                                       21
     Contacts During the Evaluation. We visited or contacted individuals and
     organizations within DoD, FBI, Virginia Department of Criminal Justice
     Services, Fairfax County Police Department, and the Colorado Springs Police
     Department. Further details are available on request.

Prior Coverage

Inspector General of the Department of Defense
     IG DoD, Report No. 985008X, “Evaluation of the Department of Defense
     Forensic Laboratories,” September 16, 1998. This report can be accessed over
     the Internet at http://www.dodig.osd.mil/dcis/cipo/evals.htm.




                                       22
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Personnel and Readiness*
General Counsel, Department of Defense
Deputy General Counsel (Inspector General)*
Director, Defense Criminal Investigative Service*

Department of the Army
Inspector General, Department of the Army
Auditor General, Department of the Army *
Deputy Chief of Staff for Operations and Plans*
Commander, U.S. Army Criminal Investigation Command*
Commander, U.S. Army Criminal Investigation Laboratory*

Department of the Navy
Director, Naval Criminal Investigative Service*
Naval Inspector General*

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)*
Inspector General, Department of the Air Force*
Commander, Air Force Office of Special Investigations*

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform
*Recipient of draft report.


                                          23
Management Comments




                      25
Department of the Army Comments




                                  26
     Department of the Army Comments




27
Department of the Navy Comments




                                  28
     Department of the Navy Comments




29
Department of the Navy Comments




                                  30
     Department of the Navy Comments




31
Department of the Air Force Comments




                                       32
     Department of the Air Force Comments




33
Department of the Air Force Comments




                                       34
                            Evaluation Team Members

The Criminal Investigative Policy and Oversight Directorate, Office of the Assistant
Inspector General for Investigations, Department of Defense, prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense, who
contributed to the report are listed below.

David E. Holmes
Phyllis M. Brown
Yvonne M. Cormier
Scott D. Russell
Terry L. Hammer
